  OBSERVATIONS ON FAA’S
CONTROLLER-PILOT DATA LINK
 COMMUNICATIONS PROGRAM
   Federal Aviation Administration

    Report Number: AV-2004-101
   Date Issued: September 30, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Observations on FAA’s                  Date:    September 30, 2004
           Controller-Pilot Data Link Communications
           Program
           AV-2004-101

  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration (FAA) Controller-Pilot Data Link Communications (CPDLC)
           program. As requested by the Senate Appropriations Committee, we reviewed
           (1) the reasons for CPDLC’s cancellation, (2) what work may be salvageable, and
           (3) what processes or controls FAA should adopt to avoid similar occurrences in
           the future.

           The CPDLC program represented a new way for controllers and pilots to
           communicate that is analogous to wireless email. CPDLC was planned for use at
           the en route centers, the facilities that manage high-altitude air traffic. CPDLC
           was expected to reduce aircraft direct operating costs by reducing delays and
           improving efficiency by (1) reducing congestion on the voice channels, and
           (2) reducing misunderstood instructions and read-back errors between controllers
           and pilots. FAA and industry jointly invested in CPDLC and began using data
           link on a limited basis in high-altitude airspace managed by the Miami Center in
           October 2002. CPDLC was expected to play an important role in the Agency’s
           Operational Evolution Plan for enhancing capacity and reducing delays over the
           next decade. However, FAA subsequently decided to cancel the current CPDLC
           program and plans to shut down CPDLC at Miami Center and terminate all the
           program’s activities by March 2005.
                                                                                                   2


RESULTS IN BRIEF
FAA decided to cancel the current CPDLC program for a number of reasons.
FAA’s reasons for canceling the CPDLC program included cost growth and
schedule delays, caused by such factors as the emergence of unplanned additional
integration requirements that posed a risk to the program, and concerns over how
quickly airlines would equip with avionics. Although FAA may start another
CPDLC program in the future, it is difficult to quantify precisely what can be
salvaged from the dollars spent because it is unclear what the next CPDLC effort
will resemble in terms of specific technology and related FAA infrastructure. We
estimate, however, that $23 million of the $100 million spent on CPDLC may be
salvageable for future data link efforts. Finally, we identified a number of lessons
learned or processes and controls that FAA should establish to avoid similar
outcomes in the future.

One of the reasons FAA canceled CPDLC was because the program
encountered cost growth and schedule delays. The original program acquisition
cost estimate of $166.7 million to implement CPDLC at 20 sites was no longer
valid. FAA’s revised cost estimate indicated it would cost $236.5 million to
implement CPDLC at eight sites, less than half the sites originally planned for an
additional $69.8 million. Further, the program would be 1.5 years behind
schedule. FAA also was concerned about CPDLC’s impact on its operations
account, which is already overburdened.1 For example, FAA’s revised estimate
indicated it would cost $345.2 million to operate a reduced CPDLC program effort
from fiscal year (FY) 1999 through FY 2017. This estimate included, among
other things, $63 million for controller training and overtime and $191 million for
CPDLC messaging costs.

CPDLC experienced overruns and delays in part because certain program
assumptions were invalid. For example, it was assumed the Display System
Replacement (DSR) workstations, which controllers would use to input data link
messages, would not require a software change to accommodate CPDLC. This
proved wrong, increasing the cost and schedule estimate to accomplish the
integration of CPDLC and DSR. This and other delays required FAA to integrate
CPDLC with the En Route Automation Modernization (ERAM) architecture (an
unplanned requirement), posing additional cost and schedule risk to both
programs.

We also found that concerns over how quickly airlines would equip with the
necessary avionics factored into the decision to cancel the program. CPDLC
messages could only be sent and received by planes equipped with the appropriate

1
    Testimony before the Senate Committee on Appropriations, Subcommittee on Transportation, Treasury
    and General Government; “Key Issues for the FAA’s FY 2005 Budget,” CC-2004-038; April 22, 2004.
                                                                                  3


avionics. Equipage rates, therefore, were important to the viability of the CPDLC
program because CPDLC benefits could only accrue if users equipped. According
to FAA, CPDLC benefits were derived from the expectation that use of CPDLC
would reduce voice congestion and controller operational errors, thereby reducing
delays and, ultimately, airline direct operating costs. For CPDLC benefits to
exceed costs, FAA estimated that more than 200 equipped airplanes had to use
CPDLC. Program documents note that FAA assumed at least 100 aircraft would
be equipped by the time CPDLC became operational in Miami, and 200 to 400
would be equipped by the time the program was deployed nationwide. However,
by mid-2003, only about 30 aircraft had been equipped.

FAA was concerned about users’ ability and willingness to equip given the airline
industry’s economic downturn in 2001. In 2001, network carriers began incurring
substantial net losses, accumulating to a total of $23.4 billion by the end of the
first quarter of 2004. The financial health of the industry influenced FAA’s
decision because FAA was relying on voluntary equipage.

Airline representatives told us the financial state of the industry was not the only
factor affecting equipage. They said that reduced CPDLC capabilities (FAA was
going to deliver only four of nine planned services) affected the airlines equipment
plans because important benefits were removed. For example, a capability to
handle pilot-initiated altitude requests was deferred until later. FAA’s decision
affected airlines planned rates of equipage because benefits considered important
to the airlines would not be provided until much later. This would have resulted in
lengthening the period between airline’s avionics investments and their costs
recovery, a situation airlines wanted to avoid.

By the time FAA closes CPDLC program activities, about $100 million will
have been spent, and about $23 million may be salvageable for future efforts.
It is difficult to quantify precisely what can be salvaged from the dollars spent
because it is unclear what the next CPDLC effort will be in terms of specific
technology and related FAA infrastructure. We note that very little can be used
“as is” largely because CPDLC was specifically designed to work with FAA’s
Host computer system, which is being completely replaced through the ERAM
program.

We reviewed expenditures and accomplishments by major program component
and assessed the potential for their use on a future data link program based on
analysis provided by the CPDLC program manager. Work performed that was
expected to require major revision in a future data link program has limited or no
salvage value. Of the $100 million, we found that no more than $23 million may
be usable for future efforts and note that the value diminishes as time elapses due
to technology obsolescence.
                                                                                 4


   • CPDLC “system development” was the largest cost element at
     $53.9 million and covers the engineering and development activities
     associated with CPDLC software and hardware development. About
     $19 million of these costs are salvageable, including communications
     software and network routers ($15 million) and portions of requirements
     and specifications documents ($4 million).

   • Although difficult to quantify, FAA believes other documentation (i.e.,
     security certification documents, controller and maintenance technician
     training packages, and test and evaluation plans) may have salvageable
     value of about $2.2 million.

   • Additionally, FAA believes of the $4.7 million spent on communications
     network and messaging costs, some of the engineering efforts to determine
     the viability of the communications network (which enables air/ground data
     communications exchange) have value ($1 million) because they will not
     have to be repeated when developing a follow-on system.

   • Some of the human factors work for controllers and pilots valued at
     $500,000 can be used for future efforts as well.

We identified a number of processes and controls that FAA should establish
to avoid similar outcomes in future data link efforts. First, FAA must do a
better job of developing reliable cost and schedule estimates. Additionally, FAA
needs to more clearly define criteria for collaborative agreements with the private
sector when joint investments are needed from both the Government and airspace
users to move forward with an initiative.

When FAA and industry agreed to proceed with CPDLC in 1998, little thought
was given to the criteria for moving forward with the program if problems arose or
how subsequent decisions to continue would be made. FAA and industry officials
believe that clearly defined entrance and exit criteria that consider both FAA and
user goals in the “start,” “continue,” and “stop” decision-making process would
have helped.

Entrance and exit criteria would have helped for several reasons. FAA and its
CPDLC industry partners would have agreed on the ramifications of failing to
meet or achieve particular events or conditions. This could have enabled better
investments and program planning.

For example, if criteria for CPDLC had included the requirement that
100 airplanes be equipped by the start of daily use at Miami for the program to
continue (to be followed by further equipage of more than 200 aircraft by a later
date), FAA may have cancelled CPDLC sooner, because by mid-2003, only about
                                                                                  5


30 aircraft had been equipped. Consequently, had FAA established quantifiable
avionics equipage level commitments by aircraft owner-participants before key
site demonstration or national deployment decisions were made, FAA would have
been better prepared to make a “start,” “continue,” or “stop” decision.

To ensure participation in future data link efforts, FAA and users need to identify
agreed-upon incentives to garner a defined level of user participation. Before
users invest, they will need to perceive benefits exist and when the benefits can be
realized. These incentives/benefits should specify what services will be provided,
when they will be delivered, and how costs (e.g., messaging costs) will be
distributed between the participants.


Recommendation
We have made numerous recommendations over the years to FAA regarding the
need to strengthen its processes for developing reliable cost and schedule
estimates for major acquisitions, and we are not making any further
recommendations about that at this time. However, the problems FAA and
airspace users encountered with CPDLC show the need for the Agency to do a
much better job of managing programs and setting expectations when both
Government and industry need to make investments in new systems. Accordingly,
we are recommending that FAA:

      1. Implement a process by which FAA and industry agree on entrance and
         exit criteria for the execution of joint programs. Should FAA start
         another CPDLC program, such entrance and exit criteria should include:

          a. Quantifiable avionics equipage level commitments by aircraft
             owner-participants before any key site demonstration or national
             deployment receives FAA “start” or “continue” decisions, as well as
             private sector participation thresholds below which a “stop” decision
             is made; and

          b. FAA and industry agreed-upon incentives/benefits to garner a
             defined level of user participation.


Management Comments
On September 9, 2004, we met with FAA program officials from the Air Traffic
Organization, En Route and Oceanic Service office to obtain their oral comments
to our discussion draft report. FAA officials generally agreed with our finding and
recommendation. We are requesting that FAA provide written comments to the
final report within 30 calendar days.
                                                                                    6


BACKGROUND
FAA has pursued many different uses of data link technology over the years under
one umbrella program known as Aeronautical Data Link. The individual
applications of data link differ significantly in complexity and intended use. Some
uses of data link are one-way only and, for example, broadcast weather
information to pilots. CPDLC, on the other hand, is a much more complex use of
data link technology and allows for two-way communication between controllers
and pilots. Implementing CPDLC—and obtaining its expected benefits—required
joint investments by FAA (in new ground systems) and airspace users (in new
avionics).

In late 1998, FAA and industry (i.e., airlines, labor unions, and aviation service
providers) reached a general agreement on the specific technology to transmit
messages (Very High Frequency Digital Link Mode-2: VDL-2) and a phased
approach for moving forward with CPDLC in the en route environment.
American Airlines agreed to serve as the lead airline and begin equipping aircraft
with new avionics for trials at Miami Air Route Traffic Control Center.

The acquisition strategy for implementing CPDLC was proposed as four “builds”
or phases. FAA only approved costs to proceed with Build I and Build IA of the
CPDLC program. The program acquisition cost estimate in 1999 for these two
builds totaled $167 million.

The first phase of CPDLC—Build I—was a single site deployment at Miami
Center that included four basic types of messages (referred to as services).
CPDLC Build I would implement the services required to perform transfer of
communications, initial contact, altimeter setting, and pre-defined free text
messages. These messages would be sent to data-link equipped aircraft using a
service provider’s VDL-2 air/ground network. The second phase—Build IA—was
to be deployed to all 20 domestic facilities that manage high-altitude traffic and
was to increase CPDLC’s message set by adding five additional services. The
new messages would accommodate assignment of speeds, headings, and altitudes,
as well as a route clearance function. A capability to handle pilot-initiated altitude
requests would also be implemented. CPDLC Build II was to expand upon
CPDLC Build IA services and messages provided. The deployment of Build III
was expected to be the final phase of the FAA’s CPDLC program, but details of
the increased capabilities of Build III were never determined.

CPDLC was expected to play an important role in the Agency’s Operational
Evolution Plan for enhancing capacity and reducing delays over the next decade.
According to FAA, CPDLC was expected to reduce aircraft direct operating costs
by reducing delays and improving efficiency through decreasing (1) congestion on
                                                                                7


the voice channels, and (2) operational errors resulting from misunderstood
instructions and read-back errors.

In early 1999, FAA contracted with Computer Science Corporation (CSC) for the
development of the software for the ground systems and links to controller
displays. In January 2000, FAA awarded another contract to CSC for the Build IA
effort to develop additional types of messages and subsequently deploy CPDLC
nationwide. FAA and American Airlines began using the Build I phase of CPDLC
in October 2002. In 2003 FAA cancelled the Build IA effort and subsequently
decided to shut down the Build I system in Miami. FAA expects to terminate all
CPDLC activities by March 2005.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our review were to determine (1) the reasons for CPDLC’s
cancellation, (2) what work may be salvageable, and (3) what processes or
controls FAA should adopt to avoid similar occurrences in the future.

We conducted our audit between May 2004 and August 2004. To determine the
reasons FAA cancelled CPDLC, we interviewed CPDLC program officials, as
well as representatives from American Airlines, Continental Airlines, and ARINC,
the CPDLC communications service provider. We reviewed data link program
documents, relevant reports, and other literature on current and past data link
activities. We also reviewed selected reports and testimonies issued by the DOT
Office of Inspector General and the Government Accountability Office.

To assess what work may be salvageable, we reviewed CPDLC expenditures and
accomplishments by major program component and assessed the potential for their
use on a future data link program based on analysis provided by the CPDLC
program manager.

To identify the processes or controls FAA should adopt to avoid similar
occurrences in the future, we drew from conclusions obtained during interviews
and our assessment of what led to the CPDLC program cancellation.

The audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts.
                                                                                         8


FINDING AND RECOMMENDATION
FAA decided to cancel the current CPDLC program for a number of reasons.
FAA’s reasons for canceling the program included cost growth and schedule
delays, including the emergence of unplanned additional requirements that posed a
risk to the program, and concerns over how quickly airlines would equip with
avionics. Although FAA may start another CPDLC program in the future, it is
difficult to quantify precisely what can be salvaged from the dollars spent because
it is unclear what the next CPDLC effort will resemble in terms of specific
technology and related FAA infrastructure. We estimate that $23 million of the
$100 million spent to complete CPDLC close-out activities may be salvageable for
future data link efforts. Finally, we identified a number of lessons learned or
processes and controls that FAA should establish to avoid similar outcomes in the
future. The Agency must establish guidelines for future joint investment
demonstration programs that minimize the kinds of risks that contributed to
CPDLC problems and led to its cancellation.


Several Factors Contributed to FAA’s Decision To Cancel CPDLC
We found that a number of factors contributed to FAA’s decision, including the
fact that the approved program baseline of $166.7 million for acquisition costs was
no longer valid. In 2003, FAA estimated that it would cost $236.5 million for
eight locations, a $69.8 million increase for less than half the locations and
capabilities originally planned. Additionally, deployment to the proposed final
eighth site was to occur 1.5 years later than previously planned. The table
provides the original and proposed CPDLC costs and schedule information.

            Table 1. CPDLC Costs and Schedule Comparison
                            ($ in Millions)
      CPDLC
     Program                   Estimated Costs and Schedule               Variance

 Year Planned                     1999                         2003
 Facilities and
 Equipment                       $166.7                       $236.5    $69.8 million

 Operations                      $478.7                       $345.2   -$133.5 million
 Number of Sites
 Planned                           20                            8       -12 sites
 Start                            06/05                        12/06       1.5 years

 Complete                         2015                         2017        2.0 years
Source: OIG analysis of FAA Acquisition Program Baseline reports
                                                                                9


CPDLC experienced overruns and delays in part because certain program
assumptions were invalid. For example, it was assumed the DSR workstations,
which controllers used to input data link messages, would not require a software
change to accommodate CPDLC. This proved wrong and increased cost and
schedule estimates for CPDLC and DSR integration.


CPDLC Impact on FAA’s Facilities and Equipment (F&E) Account
Approximately 60 percent of the $69.8 million increase was attributable to growth
in engineering, software development, testing, and associated program
management costs. The remaining 40 percent is predominantly composed of
messaging costs, which FAA was planning to initially pay for with F&E funds.

In addition to the $69.8 million increase, development costs would have increased
because CPDLC was intended to integrate with the Host computer system, but
program delays required FAA to integrate CPDLC with ERAM (Host’s
replacement system). FAA originally assumed CPDLC would be in place at
facilities that manage high-altitude traffic before ERAM development began.
When this assumption proved incorrect, ERAM software integration requirements
posed a potential risk to both programs’ cost and schedule. Significant changes to
CPDLC software were likely to be needed to interface CPDLC with the ERAM
infrastructure, which were not planned or budgeted for in the CPDLC program
baseline. CPDLC also posed a schedule risk to ERAM because CPDLC related-
software upgrades were now expected to occur during ERAM development.

If CPDLC had been deployed before ERAM, the ERAM program would have had
to pay the cost and schedule impact to interface with CPDLC, because CPDLC
would have been an existing fielded system. If not, the CPDLC program would
have had to absorb the cost and schedule impact to interface with ERAM. The
2003 proposal to “re-baseline” CPDLC showed the program would have been
deployed between 2005 and 2006, and ERAM is currently planned to be deployed
between 2008 and 2010.


CPDLC Impact on FAA’s Operations Account
Another important factor influencing the cancellation of the program was the
impact on the Agency’s operations account, which is already overburdened. FAA
estimated it would cost $345.2 million to operate a reduced CPDLC from FY 1999
through FY 2017. This cost included, among other things, $63 million for
controller training and overtime and $191 million for CPDLC messaging costs
($9 million in FY 2008 and $20 million annually from FY 2009 through
FY 2017). While the $345.2 million was lower than the original estimate of
$479 million, the program was significantly reduced in scope, because FAA was
                                                                                  10


planning to operate CPDLC at 8 sites as opposed to the 20 sites originally planned.
Out-year operating costs would be even higher if all 20 sites were brought on line.


CPDLC Equipage Rates Impacted the Program
FAA was also concerned about users’ ability and willingness to equip given the
airline industry’s economic downturn in 2001. In 2001, network carriers began
incurring substantial net losses, accumulating to a total of $23.4 billion by the end
of the first quarter of 2004. The financial shape of the airlines was important
because FAA was relying on voluntary equipage.

Airline representatives told us that reduced CPDLC capabilities (including FAA’s
plan to deliver only four of nine planned services) also affected the airlines’
equipage plans because important benefits were removed. For example, FAA’s
plan to deploy CPDLC with a capability to handle pilot-initiated altitude requests
was deferred until later in the program. FAA’s decision to defer delivery of the
remaining five capabilities affected airlines rates of equipage because benefits the
airlines considered important would not be provided until later in the CPDLC
program. Delays in obtaining benefits resulted in lengthening the period between
airlines avionics investments and their costs recovery, a situation airlines wanted
to avoid.


Only Limited Work From CPDLC Can Be Salvaged for Future
Data Link Efforts
It is difficult to quantify precisely what can be salvaged from the dollars spent on
CPDLC because it is unclear what the next CPDLC effort will resemble in terms
of specific technology and related FAA infrastructure.

We focused our analysis specifically on the FAA CPDLC Build I and Build IA
efforts from 1999 to 2004. We estimate that $23 million of the $100 million FAA
spent on CPDLC may be salvageable for future data link efforts. The following
table illustrates what FAA spent on data link by specific activity and what we
estimated can be salvaged.
                                                                                  11


           Table 2. CPDLC Expenditures and Salvage Values
                           ($ in Millions)

                   CPDLC Accounts                          Spent       Salvageable
 Facilities and Engineering (F&E) Costs
 Build I/IA
 Program Management                                            $17.1           $ 0.0
 System Development                                             53.9           19.0
 Test and Evaluation                                             9.4             1.5
 Human Factors                                                   1.2             0.5
 Communications Network & Messaging Costs-
 Engineering                                                     4.7             1.0
 Training, Security, Maintenance, Implementation                 6.1             0.7
 Closeout/Shutdown                                               3.0             0.0
   Subtotal Build I/IA                                          95.4            22.7
 Build II
 Planning Documents                                              2.4             0.0
  Total F&E                                                    $97.8           $22.7

 Operations Costs
 Controller Overtime                                             2.0             0.0
  Total CPDLC                                                  $99.8           $22.7
Source: OIG analysis of CPDLC cost data

We note that very little can be used “as is” because CPDLC was specifically
designed to work with the current Host computer (the central nervous system for
facilities that manage high-altitude traffic), which is being completely replaced
through the $2.1 billion ERAM program. A future data link program, which has
yet to be defined, can make use of portions of CPDLC. FAA’s CPDLC program
manager indicated, however, that the value of these potentially useful items
diminishes as time elapses due to technology obsolescence.

CPDLC “system development” was the largest cost element at $53.9 million and
covers the engineering and development activities associated with Build I and
Build IA software and hardware development. About $19 million of these costs is
salvageable: $15 million for communications software and network routers and
$4 million for portions of requirements and specifications documents. Although
difficult to quantify, FAA believes other documentation (i.e., security certification
documents, controller and maintenance technician training packages, and test and
evaluation plans) may have some salvageable value.

Additionally, FAA believes of the $4.7 million spent on communications network
and messaging costs, some of the engineering efforts to determine the viability of
                                                                                                            12


the communications network (which enables air/ground data communications
exchange) have value ($1 million) because they will not have to be repeated when
developing a follow-on system. Some of the human factors work for controllers
and pilots valued at $500,000 also can be used for future efforts.

Industry stakeholders were reluctant to divulge exactly how much they had
invested, but an airline official indicated the avionics equipment, knowledge
gained from participation, and training modules had value for a future data link
program. Likewise, the CPDLC’s communications service provider, ARINC,
indicated its communications network had value for a future data link program.


Better Processes and Controls Are Needed To Avoid Similar
Occurrences in Future Data Link Efforts: Important Lessons
Learned From CPDLC
Based on our discussions with FAA and industry officials, there are a number of
lessons that need to be taken into account for future modernization efforts,
particularly ones that involve joint industry/Government investments.
Implementing CPDLC was challenging because it required synchronized
investments between FAA (new ground systems) and airspace users (new
avionics). At the same time, FAA and the airlines were responding to the
economic slowdown of the early 2000s, which raised questions about how quickly
airlines would equip. FAA’s guidelines and procedures for managing major
acquisitions as outlined in the Agency’s Acquisition Management System do not
sufficiently address joint investment programs.

As we have previously reported,2 FAA also needs to develop reliable cost and
schedule estimates. Costs and schedule problems with ongoing modernization
efforts have serious consequences because they result in postponed benefits (in
terms of safety and capacity), the crowding-out of other modernization projects,
costly interim systems, or a reduction in units procured.


FAA and Industry Must Agree on “Entrance” and “Exit” Criteria for the
Execution of Data Link Programs
When FAA and industry agreed to proceed with CPDLC in 1998, little thought
was given to the criteria for moving forward with the program if problems arose or
how subsequent decisions would be made. In retrospect, FAA and industry
officials believe that clearly defined entrance and exit criteria that consider both


2
    Testimony before the Senate Committee on Appropriations, Subcommittee on Transportation/Treasury and General
    Government; “Key Issues for the FAA’s FY 2005 Budget,” CC-2004-038; April 22, 2004.
                                                                                 13


FAA and user goals in the “start,” “continue,” and “stop” decision-making process
would have helped.

Entrance and exit criteria would have helped for several reasons. FAA and its
CPDLC industry partners would have agreed on the ramifications of failing to
meet or achieve particular events or conditions. This would have prevented
surprises among the participants and enabled better investment and program
planning.

For example, if criteria for CPDLC had included the requirement that
100 airplanes be equipped by the start of daily use at Miami for the program to
continue (to be followed by further equipage of more than 200 aircraft by a later
date), FAA may have cancelled CPDLC sooner, because by mid-2003, only about
30 aircraft had been equipped. Consequently, had FAA established quantifiable
avionics equipage level commitments by aircraft owner-participants before any
key site demonstration or national deployment decisions were made, FAA would
have been better prepared to make a “start,” “continue,” or “stop” decision.

To ensure participation in future data link efforts, FAA and users need to identify
agreed-upon incentives to garner a defined level of user participation. Before
users invest, they will need to perceive benefits exist and when the benefits can be
realized. These incentives/benefits should specify what services will be provided,
when they will be delivered, and how costs (e.g., messaging costs) will be
distributed between the participants.


RECOMMENDATION
We have made numerous recommendations over the years to FAA regarding the
need to strengthen its processes for developing reliable cost and schedule
estimates for major acquisitions, and we are not making any further
recommendations about that at this time. However, the problems FAA and
airspace users encountered with CPDLC show the need for the Agency to do a
much better job of managing programs and setting expectations when both
Government and industry need to make investments in new systems. Accordingly,
we are recommending that FAA:

      1. Implement a process by which FAA and industry agree on entrance and
         exit criteria for the execution of joint programs, should FAA start
         another CPDLC program, such entrance and exit criteria should include:

          a. Quantifiable avionics equipage level commitments by aircraft
             owner-participants before any key site demonstration or national
             deployment receives FAA “start” or “continue” decisions, as well as
                                                                                14


             private sector participation thresholds below which a “stop” decision
             is made; and

          b. FAA and industry agreed-upon incentives/benefits to garner a
             defined level of user participation.


MANAGEMENT COMMENTS
On September 9, 2004, we met with FAA program officials from the Air Traffic
Organization, En Route and Oceanic Service office to obtain their oral comments
to our discussion draft report. FAA officials generally agreed with our finding and
recommendation.


ACTION REQUIRED
In accordance with DOT Order 8000.1C, we would appreciate receiving your
written comments on this report within 30 calendar days. If you concur with the
finding and recommendation, please indicate the specific action taken or planned
for the recommendation and the target date for completion. If you do not concur,
please provide your rationale. You may provide alternative courses of action that
you believe would resolve the issues presented in this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1992 or David Dobbs, Assistant Inspector General for Aviation Audits, at
(202) 366-0500.

                                        #
                                                                            15




EXHIBIT A. ACTIVITIES VISITED OR OFFICIALS
CONTACTED

FAA Air Traffic Organization, Vice President for En Route and Oceanic Services

FAA Controller Pilot Data Link Communications Program Officials and Staff

American Airlines, Managing Director of Systems Operations Engineering

Continental Airlines, Regulatory Affairs Official

ARINC, Vice President Aviation and Air Traffic Services

ARINC, Director, Global Link Services, Aviation and Air Traffic Services




Exhibit A. Acti vities Visited or Officials Cont acted
                                                                         16




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Kevin Dorsey                          Program Director

  Melissa Pyron                         Senior Auditor

  Art Shantz                            Consultant

  Eileen Lynch                          Technical Advisor, Contracting

  Kathleen Huycke                       Editor




Exhibit B. Major Contributors to This Report
